<html>
<title> - UNITED STATES POLICY IN IRAQ: NEXT STEPS</title>
<body><pre>[Senate Hearing 107-388]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-388

                UNITED STATES POLICY IN IRAQ: NEXT STEPS

=======================================================================



                                HEARING

                               before the


INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL SERVICES SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION


                               __________

                             MARCH 1, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs


78-624              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
              Richard A. Hertling, Minority Staff Director
                     Darla D. Cassell, Chief Clerk

                                 ------                                

INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL SERVICES SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 THAD COCHRAN, Mississippi
ROBERT G. TORRICELLI, New Jersey     TED STEVENS, Alaska
MAX CLELAND, Georgia                 SUSAN M. COLLINS, Maine
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
JEAN CARNAHAN, Missouri              PETE V. DOMENICI, New Mexico
MARK DAYTON, Minnesota               ROBERT F. BENNETT, Utah
                   Richard J. Kessler, Staff Director
               Mitchel B. Kugler, Minority Staff Director
                      Brian D. Rubens, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Thompson.............................................     3
    Senator Domenici.............................................    10
    Senator Cochran..............................................    21
Prepared statement:
    Senator Carnahan.............................................    31

                               WITNESSES
                         Friday, March 1, 2002

Robert J. Einhorn, Senior Adviser, International Studies Program, 
  Center for Argument and International Studies..................     4
David A. Kay, Vice President, Science Applications International 
  Corporation....................................................     7
Richard O. Spertzel, former head of UN Special Commission 
  (UNSCOM) Biological Weapons Inspection, and former Deputy 
  Commander, USAMRIID............................................    12

                     Alphabetical List of Witnesses

Einhorn, Robert J.:
    Testimony....................................................     4
    Prepared statement...........................................    33
Kay, David A.:
    Testimony....................................................     7
    Prepared statement...........................................    43
Spertzel, Richard O.:
    Testimony....................................................    12
    Prepared statement...........................................    48

                Additional copy submitted for the Record

Questions and answers submitted for the record for Mr. Kay from:
    Senator Domenici.............................................    57
    Senator Carnahan.............................................    58
Questions and answers submitted for the record for Mr. Spertzel 
  from:
    Senator Akaka................................................    60
    Senator Domenici.............................................    62
    Senator Carnahan.............................................    63
Appendix: Background.............................................    65

 
                UNITED STATES POLICY IN IRAQ: NEXT STEPS

                              ----------                              


                         FRIDAY, MARCH 1, 2002

                                     U.S. Senate,  
                 International Security, Proliferation,    
                       and Federal Services Subcommittee,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:29 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Carper, Thompson, Domenici, and 
Cochran.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The Subcommittee will please come to order.
    This Subcommittee has held hearings over the past 5 months 
on the proliferation of weapons of mass destruction around the 
globe and the threat they pose to the United States and our 
allies. We have discussed how non-proliferation programs, 
multilateral regimes, and export controls can prevent the 
spread of WMD to other countries and terrorist organizations. 
Today, we face the question of what to do once a nation--in 
this case, Iraq--has such weapons.
    The United Nations inspections between 1991 and 1998 were 
successful in uncovering and reducing much of Iraq's WMD 
capabilities. Economic sanctions have prevented Iraq from 
acquiring materials to restore its military-industrial base and 
have severely limited clandestine arms acquisition.
    However, Iraq continues to pose a significant national 
security threat to the United States. It continues to rebuild 
its weapons of mass destruction capabilities. If UN sanctions 
were completely lifted, its weapons program would accelerate. 
We may have hindered or prevented upgrades to Iraq's WMD 
capabilities, but what should we do about the capabilities they 
already possess?
    Even this may not be the case, as one of our witnesses 
today will state his assessment that Iraq's biological weapons 
program is stronger today than it was in 1990. These are the 
facts. Iraq had a sophisticated WMD program, including a 
nuclear weapons program. Iraq used chemical weapons against its 
own people and its neighbor Iran. Iraq had and has a missile 
program which can deliver WMD. We believe that Iraq continues 
to have and develop WMD warheads.
    Now, the questions are: How worried do we need to be? And 
what should we do about it? Should we become more aggressive 
militarily and more active in our support of Iraqi opposition 
groups?
    There has been considerable discussion about whether or not 
the United States should invade Iraq to overthrow Saddam 
Hussein. There has been less talk about invading Iran, although 
Iraq, Iran, and North Korea are described by President Bush as 
the ``axis of evil.'' Yet the WMD programs in Iran may be more 
advanced because they have been able to proceed without the 
restraint of UN sanctions.
    Iran is believed to be developing nuclear, chemical, and 
biological weapons and intercontinental ballistic missiles. We 
also know that our own Department of State lists Iran as an 
active state sponsor of terrorism and is systematically abusing 
its own people. We hope Iran can change from within, but there 
are no guarantees, and anti-American hard-liners appear to be 
still in charge.
    Can we attack one country and not the other? That question 
is among the many I hope we will address today. For example, 
another Gulf War will likely require many more troops than are 
now deployed in Afghanistan and may result in chemical and 
biological attacks against our forces.
    My view at this time is that we should continue to push to 
get UN inspectors back on the ground, both to constrain the 
Iraqi WMD program and to gain a better understanding of the 
scope of current Iraqi efforts. Keeping Saddam Hussein bottled 
up and forcing him to confront obstacles in every direction is 
not a bad outcome as we consider our long-term strategy while 
rebuilding our military arsenal.
    I have asked our witnesses to describe the current Iraqi 
WMD threat. They will also discuss the impact sanctions have 
had on the weapons programs and how international opinion of 
the Iraqi WMD threat has changed. I have also asked them to 
discuss policy options and their consequences.
    Our witnesses are the Hon. Robert Einhorn, Dr. David Kay, 
and Dr. Richard Spertzel.
    Robert Einhorn, of the Center for Strategic and 
International Studies, was Assistant Secretary for Non-
Proliferation in the State Department from November 1999 to 
August 2001. He was responsible for non-proliferation of 
nuclear, chemical, and biological weapons, missile delivery 
systems, and advanced conventional arms. His experience will 
serve us well in our discussion today.
    Our second witness, Dr. David Kay, of the Science 
Applications International Corporation, was the United Nations 
chief nuclear weapons inspector from 1991 to 1992 and led many 
inspections into Iraq to determine their nuclear weapons 
production capability. He will share with us his insight and 
expertise on the Iraqi nuclear weapons program.
    Our final witness, Dr. Richard Spertzel, is a retired Army 
colonel and former Deputy Commander of the U.S. Army Medical 
Research Institute of Infectious Disease at Fort Detrick, and 
is an expert on biological weapons. He has served as the head 
of the United Nations Special Commission Biological Weapon 
Inspections Team in Iraq from 1994 to 1998. I look forward to 
hearing his views on Iraq's biological weapon prospects.
    I want to thank all of our witnesses for being with us 
today and helping us to make sense of the numerous reports and 
speculations about Iraq's WMD capabilities.
    I would like to yield to my colleague, Senator Thompson, 
for his statement.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you very much, Mr. Chairman, and 
while we often thank our Chairman for holding hearings as a 
matter of course, I really do thank you for having these 
hearings today. I can't think of anything more timely and more 
important. Although it is a Friday and some of our colleagues 
are beginning to think about greener pastures, I am glad we 
have this opportunity with such distinguished gentlemen here to 
help enlighten us. This is clearly a situation where the status 
quo is not satisfactory because while our policy might be 
status quo, what is happening in Iraq clearly is not.
    Iraq has used weapons of mass destruction. It has invaded 
its neighbors. It has violated international arms control 
obligations. It has lied and concealed at every step of the 
inspection process. It has defied the United Nations. It has 
continued to build up its weapons of mass destruction. It is 
headed by a person who is unpredictable and will not 
necessarily follow our notions of logic.
    Clearly, it all makes for an extremely dangerous situation. 
If Saddam obtains the weapons of mass destruction that he 
apparently is working on, it is not only a threat to Israel, it 
is not only a threat to oil supplies in the region, it is not 
only a cause for countries like Iran to build up their 
capabilities, but apparently all he lacks is sufficient fissile 
material and a little more delivery capability, and he will be 
able to hit the United States one of these days with nuclear 
weapons.
    So the threat is growing. The sanctions are a sham. We have 
lost our allies in the process with regard to this matter, and 
we are losing the PR battle. So, clearly, something has to be 
done. We have got a situation where Russia and France and other 
countries are vetoing any efforts to get any positive results 
out of what the United Nations has been trying to do. Dozens of 
countries fly in and out of there, violating the air ban. It is 
not only bad policy, it is disrespectful. And to me, I think 
the worst thing in the world that could happen is for Saddam to 
let inspectors back in. I know that is what the administration 
is calling for. I don't know whether they really want it or 
not, but I hope not, because if, in fact, we got back in there, 
it would be the same old song and dance. It would take months 
and months to gear up to get people back in there. Inspections 
are based on the notion that someone is not doing something and 
wants to be able to prove it. We clearly know that is not the 
case; therefore, it just means another cat-and-mouse game, at 
which point he would run to the United Nations and get his 
friends there to protect him with regard to whatever he is 
doing. And by that time, months, if not years, have passed and 
actually it puts off any chance for a regime change, which is 
the ultimate resolution, it seems to me.
    But, anyway, it is important that we understand, the 
American people understand the seriousness of the issue, and we 
need all of the help and wisdom we can get, and I am sure we 
are going to get some today. So thank you again for holding 
these hearings today.
    Senator Akaka. Thank you very much, Senator Thompson, for 
your statement.
    We would like to proceed now with the testimony. I just 
want to apologize for the lateness. I think you know we had a 
vote call at 10 a.m., and for that reason we are slightly 
delayed. But we certainly welcome you and look forward to your 
statements.
    Mr. Einhorn, we would welcome any opening statement or 
comments you may have. We will include your full statement in 
our record of the hearing, and also ask you to try to summarize 
your statement for us. Thank you very much, Mr. Einhorn.

      TESTIMONY OF ROBERT J. EINHORN,\1\ SENIOR ADVISER, 
    INTERNATIONAL STUDIES PROGRAM, CENTER FOR ARGUMENT AND 
                     INTERNATIONAL STUDIES

    Mr. Einhorn. Thank you, Mr. Chairman, and thank you, 
Senators Thompson and Domenici, for this opportunity to appear 
before the Subcommittee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Einhorn appears in the Appendix 
on page 33.
---------------------------------------------------------------------------
    In his State of the Union speech, President Bush vowed to 
prevent regimes that seek chemical, biological, or nuclear 
weapons from threatening the United States and the world. He 
said that he would not stand by as peril draws closer and 
closer.
    Most experts believe that the peril of Iraqi weapons of 
mass destruction is very close, and, indeed, in some respects 
it already exists. Today, or, at most, within a few months, 
Iraq could launch missile attacks with chemical or biological 
weapons at its neighbors. Within 4 or 5 years, it could have 
the capability to threaten most of the Middle East and parts of 
Europe with missiles armed with nuclear weapons containing 
highly-enriched uranium produced indigenously. Within that same 
period, it could threaten U.S. territory with nuclear weapons 
delivered by non-conventional means.
    If Iraq managed to get its hands on sufficient quantities 
of already produced fissile material, these threats could 
arrive much earlier.
    We have an enormous stake in stopping Iraq's WMD programs. 
If we fail to stop them, we will have a much more difficult 
time heading off Iran's efforts to acquire comparable 
capabilities. And a nuclear arms competition north of the Gulf 
will certainly stimulate interests in such capabilities 
elsewhere.
    We must also be concerned about Iraq's links to terrorists 
and about the possibility that Iraq might share WMD-related 
materials and expertise with terrorist groups. But Iraq's 
illegal pursuit of weapons of mass destruction capabilities is 
a sufficient basis, independent of whatever role it may be 
playing in global terrorism, to treat it as a dangerous threat 
that must be neutralized.
    But one thing should be clear. After over a decade of 
effort trying to disarm Iraq, the current regime in Baghdad 
will not voluntarily come clean about its current programs or 
give up WMD and missile delivery capabilities for the future. 
The importance it attaches to those capabilities can be 
measured by the well-over $100 billion in national income that 
the leadership has chosen to forego rather than to meet its 
disarmament obligations and have the sanctions removed.
    No inducements or blandishments, not even the growing 
prospect of military action by the Bush Administration, are 
likely to produce a genuine change of heart and a decisive and 
credible change of behavior as far as weapons of mass 
destruction are concerned.
    Given these considerations, one must conclude that the only 
reliable and durable way of preventing Iraq from regenerating 
and enhancing its weapons of mass destruction and proscribed 
missile capabilities is to replace the current regime with one 
that is prepared to abide by its international obligations. A 
consensus seems to be developing in Washington in favor of 
regime change in Iraq. The debate is no longer over whether but 
over when and how.
    This hearing has not been convened to discuss the questions 
of when and how, but because a strategy for regime change is 
likely to take additional time to develop, to prepare for, and 
to execute, anywhere from several months to perhaps a year or 
even more, we should give consideration to the interim steps we 
should be taking now to address the Iraqi WMD threat.
    An important interim step is scheduled to be taken May 30. 
It is to revise the current UN sanctions regime so as to 
expedite the delivery of a wider range of civilian goods to the 
Iraqi population while focusing the trade restrictions more 
narrowly on dual-use items that could contribute significantly 
to proscribed weapons programs. By reducing the workload for 
U.S. reviewers, these smarter sanctions could enable them to 
give closer scrutiny to the most sensitive cases. And by 
reducing delays in the approval of goods for the Iraqi people, 
they could help shore up international support for the 
remaining more tightly focused restrictions on Iraqi imports.
    Another interim step would be to minimize Iraq's illegal 
oil sales. The proceeds from these sales go directly to Baghdad 
rather than to the UN escrow account. They give Iraq the income 
to purchase clandestine imports for its military programs. 
Because Iraq makes these illegal sales at heavily discounted 
prices, it will be hard to get the purchasers, including Syria 
and U.S. friends, Jordan and Turkey, to limit them or to put 
them under the Oil-for-Food Program. But it is important that 
we press them to do so.
    The United States should also seek to reduce Iraq's illicit 
imports. It should urge Iraq's neighbors to adopt a much more 
serious approach to monitoring border trade and should offer 
them technical and material assistance to help them screen 
cargos more effectively.
    The administration should also press key states that trade 
with Iraq, including Russia and China, to exercise much more 
rigorous scrutiny and control over exports to Iraq. And we 
should be working aggressively with other governments to 
interdict sensitive cargos headed to Iraq when we receive 
information about such shipments.
    Another possible interim step would be the return of UN 
inspectors to Iraq. In recent weeks, President Bush and his 
advisers have repeatedly called on Iraq to readmit the 
inspectors. But at times, including in Secretary Rumsfeld's 
recent appearance on ``Face the Nation,'' administration 
officials have expressed skepticism about the value of resuming 
UN-mandated verification in Iraq.
    Among the concerns expressed about UN inspections is that 
the inspectors wouldn't have the same intrusive inspection 
rights as the UN teams that operated before December 1998. 
Another concern is that they wouldn't find or learn much of 
value and that they would end up giving Iraq an unwarranted 
clean bill of health and actually facilitating the removal of 
sanctions.
    Much of this concern is exaggerated. The new UN Monitoring, 
Verification, and Inspection Commission, or UNMOVIC, and the 
International Atomic Energy Agency, or the IAEA, would have the 
same inspection rights, at least on paper, as their 
predecessors. UN resolutions make clear that Iraq must 
cooperate in all respects and make progress in resolving key 
remaining disarmament tasks before the Security Council can 
even give consideration to suspending sanctions, and sanctions 
cannot be lifted altogether until all outstanding disarmament 
issues are resolved.
    Moreover, suspending or lifting sanctions would require an 
affirmative decision by the UN Security Council, and, of 
course, the United States will have a veto in any such 
decision.
    Now, it is true that inspectors would rarely, if ever, be 
able to find anything that Iraqis have taken pains to conceal. 
If they approach anything incriminating, we would expect the 
Iraqis to deny them access. But even if the inspection teams 
are unable to ferret out and expose hidden capabilities, they 
may nonetheless be of value in terms of understanding and 
constraining the Iraqi WMD threat.
    In particular, the installation of sophisticated monitoring 
equipment at hundreds of locations and the constant movement of 
inspection teams around the country would complicate Iraq's 
covert programs, making it somewhat harder and more expensive 
to keep those efforts hidden and probably slowing the pace and 
decreasing the scale of those programs.
    Monitors would give us a better appreciation of Iraq's 
missile programs and their breakout potential. They would also 
provide assurance, as long as they had access and their 
equipment was operating, that illicit production was not taking 
place at known dual-use and other suspect facilities. But this 
brings me to the most serious shortcoming of renewed UN 
verification.
    At their very best, the inspectors can complicate, 
constrain, and slow down Iraq's clandestine efforts and give us 
a better picture of what is going on in Iraq than we have 
today. But they cannot compel Iraqi compliance and, therefore, 
cannot put an end to the WMD threat posed by Iraq. In other 
words, they can contain the problem, but they cannot solve it.
    Moreover, having the inspectors in Iraq could complicate a 
strategy of regime change. It would give other countries, 
including the Europeans and states of the Middle East, an 
excuse for arguing that military action should be deferred 
while inspections are given a chance to resolve the WMD 
problem.
    All this said, the debate about whether the inspectors 
should return is probably moot. So far, Iraq has given no 
indication that it is willing to allow the inspectors to go 
back on terms that the United States could conceivably support.
    However, we can't rule out the possibility of a reversal by 
Iraq, especially if the Bush Administration's tough posture has 
made the Iraqis nervous. But we will see when the Iraqi Foreign 
Minister comes to New York and speaks to UN Secretary-General 
Kofi Annan next week.
    If Iraq says the inspectors can return, the administration 
would be hard pressed to say they shouldn't, especially in 
light of the position it has been taking recently. But it would 
have to insist on a clear understanding on the part of the P-5 
members that UN verification activities must be carried out in 
strict accordance with existing UN Security Council resolutions 
rather than on the basis of any new ground rules that Iraq 
could try to establish. And the P-5 should agree that there 
would be a firm unified response in the face of any Iraqi 
failure to give its full cooperation to the inspectors.
    In conclusion, Mr. Chairman, as President Bush warned in 
discussing the growing WMD threat, time is not on our side. 
This is especially true in the case of Iraq. We should, 
therefore, take interim steps to contain the threat, but such 
steps, even if successful, would only buy us some additional 
time. We need to use that time to prepare an effective strategy 
for the only approach that can be expected to stop WMD programs 
and prevent them from regenerating, and that is to change the 
current regime in Baghdad.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Mr. Einhorn, for your 
insights.
    Dr. Kay, we invite you to give your statement.

     TESTIMONY OF DAVID A. KAY,\1\ VICE PRESIDENT, SCIENCE 
             APPLICATIONS INTERNATIONAL CORPORATION

    Mr. Kay. Thank you, Mr. Chairman, and I will quickly 
summarize my statement and, with your permission, enter the 
full statement into the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kay appears in the Appendix on 
page 43.
---------------------------------------------------------------------------
    It has been more than a decade that the international 
community has confronted, and unsuccessfully, a long-term 
solution to an Iraq led by Saddam Hussein and armed with WMD. 
In fact, as I say that statement, I realize that it has been 
almost 11 years to the day since I first led an inspection team 
into Iraq and spent 2 weeks running through the country to 
finally identify a part of their nuclear weapons program. My 
appreciation for the movie ``Groundhog Day'' is much less, 
although my understanding of it is much greater as a result of 
those 11 years that I did not expect this problem to be around.
    I think in trying to understand where we are today with 
regard to Saddam's nuclear program, it is important to 
understand the assumptions that proved to be false that we 
based UNSCOM's inspections on and, indeed, I would say U.S. 
policy at the beginning.
    The first assumption was that Saddam's rule would not 
survive the disasters suffered by Iraq as a result of its 
invasion of Kuwait and the Gulf War. It was hard to imagine, 
certainly for those of us coming from democratically ruled 
countries, that any regime could survive such a disastrous 
policy.
    Second was that Iraq's WMD capacities were not extensive 
nor really significantly indigenous. I still remember the 
intelligence briefs I received as we were ending up the nuclear 
side of the inspection about what Iraq had. It was a program 
that had spent a lot of money, had accomplished very little, 
and most of which had been taken care of anyway by the air 
campaign.
    Third, it was a post-Saddam Iraq--and that was the 
assumption of most people as we entered the inspection--that a 
post-Saddam Iraq would declare to UNSCOM all of its WMD 
capacities.
    And, fourth, that UNSCOM would be able to ``destroy, 
remove, or render harmless'' in terms of the UN resolution 
Iraq's WMD capacity, leaving an Iraq that did not have such a 
capacity. And the assumption going in was this was probably a 
90-day effort or, at most, 6 to 9 months. How wrong assumptions 
can be.
    Let me just dwell on one of those assumptions that is still 
bedeviling us today. We did not understand the impact that the 
discovery of such a gigantic spread and indigenous WMD program 
would have on our future efforts to, in fact, contain that 
program. Iraq's nuclear program--and it is true of the BW, 
chemical, and missile program as well--spanned over a decade, 
spent over $20 billion, employed 40,000 Iraqis, and 
accomplished much--all of the technical steps on these programs 
are well understood, and most of the production steps where the 
real problems arose, in fact, had been overcome.
    Iraq is not like a Libya. Iraq that we face today is much 
more like Germany at the end of the First World War under a 
Versailles regime and inspectors. It is an indigenous 
capability.
    The capability to produce weapons of mass destruction that 
arises from a national program on this scale is one that to 
eliminate by inspection is, quite frankly, a fool's errand. We 
have underestimated entirely what inspections--we have 
overestimated at the beginning what inspections could 
accomplish. And let me hesitate--stop here to say inspectors 
accomplished a great deal. In the nuclear area, for example, UN 
inspections destroyed more nuclear facilities than were 
destroyed by the coalition air force during the Gulf War, 
simply because we were able to find facilities that were not 
known before.
    But to compress a lot of history, in December 1998, when 
the United States conducted military actions against Iraq, all 
inspections ended. It took a year later to bury UNSCOM, but, 
quite frankly, inspections had been net down to an almost 
insignificant point by 1996 and 1997. The ending of UNSCOM was 
almost a humanitarian effort.
    The regime that replaced UNSCOM, UNMOVIC, which it took a 
year to negotiate, was to be more acceptable to Iraq, led by a 
commissioner that Iraq and Iraq sympathizers on the Security 
Council would find acceptable. Indeed, the Secretary-General's 
first choice for that job was rejected by the Russians and the 
French.
    Even under these more favorable inspection regimes, Iraq 
has still refused to this day to allow inspections into Iraq.
    Mr. Chairman, you posed a series of what I think are 
critical questions about the Iraqi nuclear program, where it is 
today, what impact UN sanctions have had on it, and what are 
the options for dealing with this in the future. Let me try to 
just quickly give you my views on that, and I think the first 
and most serious point about this is to recognize that this 
program is an indigenous program. It is a program where the 
Iraqis understand the technology of producing nuclear weapons.
    It has engaged not only in the technical side, but Iraq 
really beginning in the mid-1980's engaged in a major effort of 
deception and denial, of hiding their facilities, of 
understanding them. They certainly studied our inspection 
techniques well enough to know how we proceed and to compensate 
for that.
    When we got close to penetrating their web of deceptions, 
they resorted to physical force and denial. I had the fortunate 
privilege, I guess one would say, of spending 4 days in an 
Iraqi parking lot as a guest of the state, not a hostage, 
because we got close to discovering and, in fact, did seize the 
basic documentation on the Iraqi nuclear program. It is a 
layered program of protection, and Iraq has learned much more 
about that.
    Let me try, based on the very sketchy insights we have in 
the more than 3 years since inspections ended and limited 
number of defectors, try to give you my view of where that 
program is today.
    Iraq's pre-Gulf War program ensured that if they had 
fissile material of a sufficient quantity and quality, they 
would today be able to fabricate a nuclear device. Certainly as 
Senator Domenici understands because of the state he 
represents, the hard nut for any nuclear wannabe to crack is 
the acquisition of fissile material. Once you have that, Iraq 
knows the rest of the fabrication steps.
    The German intelligence agency publicly--and it is always 
easier to cite a foreign intelligence service than your own, 
for those of us who continue to do professional work. The 
Germans last year cited that because of major Iraqi procurement 
efforts that were continuing at least through the end of last 
year, in the worst case, without external assistance or new 
fissile material, Iraq would have nuclear weapons in 3 to 6 
years.
    Second, you can have great confidence that Iraq will, in 
the 3 years since inspectors were in, have carried out a major 
deception campaign of hiding and scattering key nuclear 
facilities. I am somewhat more fortunate than my colleagues. It 
is a little harder to shield nuclear and hide nuclear 
facilities, but not impossible, and we have real experience 
with the Iraqis on that.
    Third, Iraq understands the methods used by inspectors and 
how we operated, and they also understand the methods used by 
national intelligence services. These are very smart, 
determined adversaries.
    I had the great privilege, when I wasn't sleeping in the 
parking lot, of having a hotel room in Baghdad that had 24-hour 
video and audio monitoring. They looked at how we did--they use 
local Iraqis to penetrate it. They penetrated the inspection 
mechanism itself.
    The next is that Iraq has not abandoned its efforts to 
acquire WMD. Recent defectors stated that as recently as August 
1998--that is while inspections were still going on--a formal 
order was issued to proceed with the nuclear program at full 
blast.
    Finally, economic sanctions no longer play any significant 
role in limiting Baghdad's nuclear ambitions. Oil prices have 
gone up. Smuggling methods have increased. And in any case, 
Saddam gives a priority to his WMD program. If the Iraqi 
population has to do without medicine, you can be quite sure 
the WMD program does not starve for material because of a lack 
of money.
    Let me turn to the attitude--and in many ways for me this 
is, I think, the most regrettable one because I think it shapes 
our possible actions and certainly shapes my negative prospects 
on inspection. And that is the attitude of states in the region 
and our European allies towards Iraq's WMD ambition.
    By 1996, the real aim of the inspections--that is, 
eliminating Iraq's WMD capacity and installing some long-term 
monitoring capability--had started to slide away in the face of 
absolute Iraqi determination but, more importantly, an attitude 
among regional and European allies of the United States that 
this was no longer as important as short-term economic and 
political gain. And I am particularly speaking of the attitude 
of the Russians and the French.
    We also have to credit--and it is a discredit on ourselves, 
I must say--a very successful Iraqi propaganda campaign which 
convinced most of the world's population, including many in the 
United States, that sanctions and UNSCOM inspections were 
responsible for the devastation, health- and welfare-wise, of 
the Iraqi population. That is simply not the case. The starving 
and lack of medicine of the Iraqi population was a result of 
Saddam's determination to use the money available for his 
weapons of mass destruction program. It was not the result of 
economic sanctions. And though, as you may tell, I believe this 
with vigor, I think it is largely irrelevant. They won the 
propaganda game, and Americans as well as Europeans and many in 
the Middle East believe we are responsible for that suffering.
    Senator Domenici. Mr. Chairman, might I ask Dr. Kay if I 
might have 1 minute to comment? I have to be at another 
meeting.
    Senator Akaka. Certainly.
    Senator Domenici. Thank you very much, Mr. Chairman. I 
would ask that my statement be made a part of the record as if 
read.
    Senator Akaka. Without objection, it will be included in 
the record.

             OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. I want to comment to you and Senator 
Thompson with reference to this hearing, I only wish that 
millions of Americans would get to hear the testimony we are 
hearing here today. There are so many that listen to our 
President talk about Iraq and what must happen sooner or later 
that have no idea what is being said here as the reality in 
Iraq with reference to weapons of mass destruction and what 
they are doing to make sure that they reach the right level to 
continue to be the very major nuisance that they are. I think 
the hearings are very worthwhile, and I thank you for them and 
thank the witnesses. Thank you, Dr. Kay.
    [The prepared statement of Senator Domenici follows:]

                 PREPARED STATEMENT OF SENATOR DOMENICI

    I would like to welcome each of the panelists and then make just a 
few brief remarks about today's subject matter.
    As we all know, we have been playing a game of cat and mouse with 
Iraq since the end of the Gulf War in which Saddam continually 
sacrifices the welfare of the Iraqi people for his own hunger to 
possess weapons of mass destruction.
    While the comprehensive containment approach we have taken with 
coalition partners has largely kept Saddam at bay, we remain uncertain 
of the state of Iraq's weapons programs as a result of his expelling 
UNSCOM inspectors in 1998.
    Since the terrorist attacks of last fall, we are more alert than 
ever as to the lack of any inhibitions certain factions have about 
using any means necessary to strike at the heart of United States 
security.
    Clearly, Iraq is such a faction. Saddam has used chemical weapons 
on his own people and, given the opportunity, he would use any weapon 
of mass destruction against us or our allies.
    The time has come for us to take this reality very seriously and 
formulate a policy that will unravel the mystery of the current status 
of Iraq's weapons programs. Simultaneously, we must implement concrete 
means for dealing with the answers we find.
    I look forward to hearing from each of you and I hope you can shed 
light on the various options we have for dealing with this real threat.
    Thank you.

    Senator Akaka. Thank you. You may proceed, Dr. Kay.
    Mr. Kay. We today face a situation where we are left with 
allies in the region that really lack sufficient military power 
to stand up to a rearmed Iraq and are increasingly unwilling to 
provide us with the political and operational support necessary 
to directly confront Iraq.
    The same splintering of the alliance has occurred among our 
European allies. The French are no longer willing partners. The 
Russians can no longer be bribed or coerced into cooperation. 
And, finally, it is a psychological war that we have lost.
    What choices do we have left? And I know that is what you, 
Mr. Chairman, challenged us all to think about. Let me say 
there are few choices. They are mostly bad.
    The easy solutions that we hear talked about--support the 
opposition, contain, as we did the Soviets, or the statement of 
the Secretary-General of the UN in 1998, ``I can do business 
with Saddam''--these are expensive, risky, and, at best, only 
partial answers.
    The reintroduction of inspectors into Iraq, now under the 
guise of UNMOVIC, I am afraid will result not in constraining 
the Iraq WMD program but, in fact, freeing them of all 
restraint. I think it is underestimated by people who have not 
served as inspectors in Iraq, the difficulty of re-baselining a 
program that has been free of inspection for more than 3 years. 
It is a significant technical challenge that can only be done 
if you have the unrestricted right to go anywhere, anytime, 
with anything, and the cooperation of the world's national 
intelligence establishments to help you. I do not think that is 
the situation that we will find if UNMOVIC inspectors were let 
in.
    I think the Iraqis have, in fact, convinced a sufficient 
number of the permanent members of the Security Council that 
the purpose of inspection is to quickly declare compliance and 
allow Iraq to be free of sanctions.
    I am absolutely convinced that if the inspectors indeed 
were to be given the support and were to probe Iraq, first of 
all, they would face this huge web of deception they would have 
to deal with; and if they got close to the truth, they again 
would meet physical restraint, just like all of their 
colleagues who for 10 years conducted inspections into Iraq. I 
am seriously worried, however, that we could be faced with a 
judgment: Iraq has allowed inspectors back in, let's get off 
their back. And that, let me remind you of the German estimate: 
3 to 6 years, the worst case, Iraq rearmed with nuclear 
weapons.
    The opposition. The best hope of the opposition in Iraq 
was, quite frankly, in 1991 at the end of the Gulf War. We 
stood aside and we allowed many brave Iraqis to be slaughtered 
by Saddam's force. There may have been a chance in 1995, early 
1996, when major coup attempts were attempted. There, again, 
the U.S. attitude was, at best, not supportive.
    Indeed, as I look at the history of U.S. support for 
democratic opposition around the world, I am reminded of 
nothing more than the dance of the black widow spider: 
Attractive, but ultimately fatal to the male.
    I don't think it is true that we are genetically incapable 
of helping oppositions effectively. It is just that we are so 
inept at it, the genetic pool of opposition is likely to be 
drained before we get the lesson right. I do not view the 
opposition as likely to play a major role in the goal of regime 
change.
    Containment I think has a nice ring. It worked in the case 
of the Soviet Union. It took 40 years, well over $20 billion, 
and reshaping European societies to do it. I don't think those 
conditions exist in the Middle East.
    I am afraid there are no alternatives but a U.S.-led--and 
U.S.-led means maybe the U.S. leading itself and hopefully our 
stalwart British allies--to use military force to end Saddam's 
rule in Iraq. And let me be clear: As long as Saddam is in 
power, the WMD aspirations and capabilities of Iraq will 
continue to develop. And while you referred to it, we largely 
have not today in our testimony referred to the issue of Iran. 
An Iraq that is continuing to seek WMD ensures that there will 
be an Iran seeking to acquire WMD. And that makes that 
territory the most dangerous spot in the world.
    Let me conclude, Mr. Chairman, by saying I think Iraq is 
unfortunately of that class of problems where all the easy 
answers seem to have been in the past and all we are left in 
near-term options that aren't really answers. Now, because I 
was there in the beginning, let me tell you, the answers that 
were there were not easy either, and we have forgotten how 
difficult they were. But there is no alternative to the 
replacement of Saddam and the regime if you want to deal with 
the WMD problem before, in fact, WMD weapons are used on the 
United States and our allies in the Gulf.
    Thank you very much, Mr. Chairman.
    Senator Akaka. Thank you for your strong statement. Dr. 
Spertzel.

TESTIMONY OF RICHARD O. SPERTZEL,\1\ FORMER HEAD OF UN SPECIAL 
 COMMISSION (UNSCOM) BIOLOGICAL WEAPONS INSPECTION, AND FORMER 
                   DEPUTY COMMANDER, USAMRIID

    Mr. Spertzel. Thank you, Mr. Chairman. I would like to 
start out by saying that I endorse 100 percent what Dr. Kay has 
just said. I have not addressed some of those particulars 
because of time constraints, but I could not have said it as 
well as he did. They are absolutely true when it comes to the 
whole issue of sanctions and inspections and dealing with Iraq.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Spertzel appears in the Appendix 
on page 48.
---------------------------------------------------------------------------
    Iraq's biological weapons program was among the most 
secretive of the weapons of mass destruction programs. Its BW 
program began in the early 1970's under the auspices of Iraq's 
intelligence service and is probably presently under the 
special security organization. From its inception, Iraq's BW 
program included both military and terrorist application. The 
terrorist component of Iraq's program was not actively pursued 
by the Special Commission.
    In 1991, Iraq's BW program was in an accelerating expansion 
phase and was not obliterated, as has been stated, by Iraq, 
including a recent submission by Iraq to the UN Security 
Council. Its bacterial BW capabilities were well established, 
including its ability for production, concentration, spray 
drying, and delivery to produce a readily dispersable, small-
particle aerosol.
    Iraq had demonstrated an anti-crop and a mycotoxin 
capability and was developing a viral capability. Iraq was 
developing both short-range and intermediate-range weapons 
delivery capability for biological agents, including, it would 
appear, a Supergun.
    Agents included lethal, incapacitating, and agricultural 
biological warfare agents. Iraq's interest in aflatoxin was in 
its long-term carcinogenic and liver toxicity effect rather 
than any short-term effects. One can only wonder what was the 
intended target population.
    Field tests encompassed point source releases, small-area 
contamination, and large-scale line source release and were 
evaluated both for tactical and strategic use. The weapons and 
range of agents considered provided Iraq with a variety of 
options for their use.
    During the inspection and monitoring regime, Iraq continued 
to expand its BW capabilities by acquiring supplies and 
equipment that would enhance its BW capability. This came about 
by the continued import of equipment and supplies, including a 
5,000-liter fermentation plant that we have no idea where it is 
located in Iraq.
    Iraq also developed the capability to produce critical 
production equipment and supplies such as standardized growth 
media of direct importance to its BW program, as well as 
fermenters, spray dryers, and centrifuges. This is the 
indigenous capability that Dr. Kay talked about.
    Iraq's experienced senior BW personnel remained intact as a 
unit throughout the inspection period. Iraq still retains the 
necessary personnel, equipment, and supplies to have an 
expanded capability. We were only able to destroy the equipment 
that we could identify was definitely part of the past program. 
That allowed such things as a critical spray dryer and multiple 
large fermenters to still remain in Iraq.
    Iraq's program can be expected to be more advanced than in 
1990, particularly its viral and genetic engineering 
capability, because the evidence suggests that those two 
efforts continued to grow in the 1990's. There is no doubt that 
Iraq has a much stronger BW program today than it had in 1990. 
And perhaps of most concern would be such agents as anthrax and 
tularemia bacteria and smallpox virus, as well as anti-animal 
and anti-crop agents. We cannot forget the economic devastation 
that could be wreaked upon the United States with the import of 
anti-crop and anti-animal agents.
    Iraq clearly places a very high priority on its BW program, 
not only the monetary cost but they considered it was vital to 
their national security and, perhaps more important, the 
security of the regime.
    A senior Iraqi official stated that BW was perceived as a 
power weapon and would influence its neighbors to see things 
Iraq's way. Senior Iraqi officials have repeatedly stated that 
BW was a vital armament step, at least until it had a fully 
developed nuclear capability.
    The continued Iraqi interest in BW terrorist research and 
development would undoubtedly evolve to meet changing 
situations and can be expected to be retained even after the 
development of its nuclear capability.
    The opinion by international experts after Iraq's program 
was disclosed has not significantly changed. But at the 
political-diplomatic level, some countries' experts' concerns 
were not reflected in the verbiage and actions by the 
respective leaders and diplomats that Dr. Kay touched upon.
    In spite of the lip service that is given to getting 
inspectors back into Iraq, there does not seem to be any 
material change in the disparity between the experts' concern 
and the diplomatic imperatives and, consequently, in the 
support that an inspection regime might expect from P-5 
members.
    Most of the proposals for getting inspectors back into Iraq 
are based on the premise that any inspectors are better than 
none. To be blunt, that is pure garbage, just an illusion of 
inspections.
    Iraq's past behavior in restricting monitoring and 
inspectors' activities is likely to be repeated. Such 
limitations would make a monitoring regime a farce, which would 
be worse than no inspectors at all, because it would provide an 
inappropriate illusion of compliance to the world community.
    I was told by a senior diplomat in 1998 that it would not 
matter if a BW-laden Al Hussein warhead were placed on the 
Security Council table. It would not change opinions about 
lifting sanctions. He added further, if the CW and missile 
files are closed, the world will not care about biology.
    It appears to me that this may still be the viewpoint of 
several nations. This attitude does not address the terrorist 
threat posed by Iraq's WMD programs. One would think after 
September 11 a more realistic appraisal of Iraq's capability 
and willingness to use WMD as terrorist weapons would be 
forthcoming. The public rhetoric is not encouraging.
    Iraq's BW component from its inception, I would like to 
remind this panel, included a terrorist component. Sanctions 
had very little impact on the maintenance and expansion of 
Iraq's BW capability. New equipment and supplies were 
continuously being seen at sites under monitoring by both 
resident as well as non-resident BW inspection teams. Such 
items should have been declared to the Special Commission but 
were not.
    Items included bacterial growth medium, state-of-the-art 
general laboratory equipment, and genetic engineering equipment 
and supplies, including the appropriate restriction enzymes. 
Large-volume production and safety equipment were imported, but 
were never seen by the Special Commission.
    Critical BW supplies and equipment are not difficult to 
smuggle into a country where the country is an active 
participant.
    I would not expect sanctions, smart or otherwise, to have 
any significant deterrent to Iraq's continued development of 
its BW program. I do not expect much success from the return of 
inspectors to Iraq. The success or failure of inspections and 
monitoring depends too much on uncontrollable elements. What 
will be the conditions under which the inspectors return? What 
support will the inspection regime have given Iraq's 
recalcitrance and the likely lack of unanimous support in the 
UN Security Council?
    Will Iraq truly cooperate and reveal or destroy all its BW 
activity? Or will Iraq continue its established pattern of 
deception, denial, and concealment? And like Dr. Kay, I expect 
the latter to be the case.
    Implementation and monitoring was predicated on Iraq fully 
and willingly cooperating with UNSCOM--that did not happen; on 
Iraq providing full and complete disclosure of its proscribed 
BW program--that did not happen; and on Iraq making full and 
accurate disclosure of all facilities containing dual-use 
equipment and capability--that did not happen. It is most 
unlikely that Iraq will now be any more cooperative.
    A fundamental requirement for monitoring to be effective 
would be full support by the UN Security Council. Even under 
the best of circumstances, it would be almost impossible to 
detect small-scale research, development, and production of BW 
agents by a state determined to conduct such activities. Should 
Iraq use mobile production facilities, several additional 
magnitudes of difficulties would exist. Such laboratories were 
proposed by one of the senior Iraqi officials as having been 
considered in 1988. It has been recently reported by the German 
intelligence service that Iraq also possesses such mobile 
laboratories for their BW now.
    Without a sense of certainty by Iraq that there would be 
severe repercussions by a united Security Council, monitoring 
does not have a chance of true success. For any chance to 
succeed, there must be a harsh penalty for non-compliance that 
is supported in advance by all P-5 members of the Security 
Council. Should Iraq be allowed to retain its BW and other 
weapons of mass destruction programs, it will remain a menace 
not only to its neighbors but to the world at large because of 
the concomitant instability it would create in the region. The 
regime is unpredictable. The Gulf States would need to judge 
all their actions in light of the Iraqi threat.
    Iraq is already openly supporting the Palestinians. Would 
Iraq risk using WMD on Israel? If this happened, what would be 
the repercussions from such a foolhardy action? Iraq's 
bioterrorism potential poses an enormous risk to any of its 
perceived enemies. While much attention is focused on 
bioterrorism against people, the economic devastation that 
could be wreaked on the food animal or food crop industry may 
be far greater in the long-term effect. Should Iraq use its BW 
expertise in bioterrorist activities, it may be impossible to 
find a smoking gun that would implicate Iraq.
    Thank you, Mr. Chairman.
    Senator Akaka. I want to thank you for your statements and 
for the work you have done for our country to help stem the 
spread of weapons of mass destruction around the world. Thank 
you for that.
    We have some questions for you. My first question is to Dr. 
Einhorn. Both you and Dr. Kay state that the key obstacle to 
Iraq constructing a workable nuclear device is access to bomb-
grade nuclear materials such as highly enriched uranium. The 
National Intelligence Council in its annual report to Congress 
gave a strong warning that, ``Weapons-grade and weapons-usable 
nuclear materials have been stolen from some Russian 
institutes.''
    Is there any indication that Iraq might have been the 
destination for any stolen material from the former Soviet 
Union?
    Mr. Einhorn. Mr. Chairman, I think we just don't know the 
answer to that question. Is it possible that the Iraqis would 
be interested--well, it is certain that Iraqis would be 
interested in obtaining that material. Could they have? It is 
possible. I am not aware of any hard evidence that they have 
succeeded in obtaining fissile material.
    Senator Akaka. Dr. Kay, since 1997, the International 
Atomic Energy Agency has been reporting that Iraq no longer has 
a nuclear weapons program. How did the agency arrive at that 
assessment? And do you agree with it?
    Mr. Kay. Well, the reports I am familiar with are the 
result of routine safeguard inspections which go to known sites 
that were known before the war, and what they are very careful 
these days--they were not always before the war--to report is 
that, of what they observe, they do not see any signs. The 
IAEA, to the best of my knowledge, has made no general--has, in 
fact, been very careful not to make a general characterization 
of whether there is something there.
    The continuing inspections the IAEA conducts in Iraq today 
have nothing to do with the arms control inspections required 
under the ceasefire resolution that ended the Gulf War.
    Senator Akaka. Dr. Kay and Dr. Spertzel, Iraq and UN 
officials will meet next week to discuss inspections. In the 
past, Iraq declared certain facilities off limits to 
inspections. If inspections are restarted, how can we be sure 
that Iraq will not revert to past actions? Previously, some 
observers suggested the United States strike Iraqi facilities 
that Iraq refused to allow to be inspected. Would such a policy 
be effective in supplementing any new inspection policy?
    Mr. Kay. Let me just take a crack at the start of it. I 
absolutely believe if inspections were to begin, nothing is off 
the table--should be off the table. Am I confident that will be 
the ground rules? No, I am not.
    With regard to the use of military force as a means of 
striking facilities that they deny access, I confess at times 
in confrontations with Iraq I have raised that prospect. Do I 
believe that is the appropriate action now? Absolutely not.
    The only way to end the Iraq WMD program is to end the rule 
of Saddam Hussein. The appropriate application of military 
force is to achieve a regime change. You will never accomplish 
limiting a WMD program by striking facilities, deception, 
denial, and all. And I must say I do not think time is on our 
side in this regard. I am convinced that if Saddam believes we 
are going to end his rule, he will use WMD. I do not see any 
advantage to giving him additional time to prepare for that use 
of WMD against U.S. troops.
    Senator Akaka. Dr. Spertzel.
    Mr. Spertzel. I pretty much agree with what Dr. Kay said. I 
believe Iraq would actually set up a confrontation just to have 
the United States--if they thought the United States would do 
it, end up bombing a nursery school. They have been known to do 
that in the past. There is no reason to believe that they would 
do otherwise in the future.
    Furthermore, this requires, again, the UNMOVIC knowing that 
a site needs to be inspected. And I don't see that happening.
    Senator Akaka. Dr. Spertzel, UN Resolution 1284 states that 
the new UN inspection team will be staffed by mostly new and, 
therefore, inexperienced personnel. Under these conditions, how 
effective and how reliable do you think the new team's findings 
will be?
    Mr. Spertzel. The new team's--I should start out by saying 
that I helped to teach the first team, and it is a question 
mark how new that first group of trainees were, because I knew 
them all on a first-name basis.
    But having said that, they have received additional new 
ones, and they have gone through extensive training. The value 
of that training to the real situation in Iraq, I think, is 
pretty much of a moot point.
    New inspectors are going to fumble in the beginning. I 
think I can illustrate this best by stating what happened on 
one of our inspection teams, when we got out of Iraq and a new 
member who had been to Iraq for the first time said, ``Why were 
you so tough as a team on Iraq? They sounded perfectly 
plausible to me, the explanations they were giving.''
    We had this same individual on another inspection about 2 
months later, and about halfway into the second day, he turned 
to me and said, ``Now I know why you were so tough the first 
time.''
    It takes that learning curve that is only gained by 
actually on-the-ground doing it. So the simple answer to your 
question is, in the beginning it is going to be a tough job for 
them. This comes back to a statement that Dr. Kay made about 
rebaselining. I don't think they can do it in 6 to 9 months' 
time.
    Senator Akaka. Mr. Einhorn, there have been reports about 
Iraq developing an unmanned aerial vehicle program. How 
concerned should we be at this time about this program, 
especially as it relates to biological or chemical weapon agent 
delivery?
    Mr. Einhorn. Mr. Chairman, I think we should be concerned. 
We are aware that the Iraqis have taken trainer aircraft and 
sought to adapt them for unmanned use. I believe they have had 
special modified spray tanks that they have tried to hook up to 
such a vehicle. And the assumption is that this was for 
delivery of chemical or biological weapons. I think we ought to 
be concerned about that program.
    Mr. Spertzel. Could I comment on that, sir?
    Senator Akaka. Dr. Spertzel.
    Mr. Spertzel. I would like to add that, of course, Iraq had 
such a program which they claim was for bio, but it appears it 
was actually for bio and chemical delivery both, and that was 
with converting a MiG to an unmanned vehicle.
    The continuation with the trainer aircraft that was 
mentioned just a few minutes ago involved the same Iraqi 
experts, engineering experts, as those involved in adapting 
both the drop tank as well as attempts to modify a MiG fighter 
to be an unmanned aircraft. So, absolutely, there are major 
reasons for being concerned about the development of such a 
weapons delivery system.
    Senator Akaka. At this time I would like to call on Senator 
Thompson for his questions.
    Senator Thompson. Thank you, Mr. Chairman.
    Gentlemen, let me ask you to--after stating that Saddam is 
unpredictable and sometimes irrational, I am going to ask you 
to put yourself in his shoes, and even though there seems to be 
a rough sense of logic, Saddam logic, anyway, that pertains 
sometimes--and you all have watched him for a long time--and 
ask you what you think he is thinking about this situation 
right now.
    In light of the fact, if you agree, as I do--and I think 
with most all of you--that the worst thing that could happen is 
for us to get back in there under some idea that things are 
going to be different, yes, we can slow him down a little bit, 
but he knows us better, he is better at deception even than he 
was before. He has gone to school on us the first time. He 
knows that ultimately he can count on his friends in the UN 
Security Council if things get tough or when he decides to shut 
things down. Then the battle becomes over which building are 
you going to be able to go into and very narrow issues. Surely 
this is not worth going to war over, we will hear over and over 
again. I believe this is the case. If it is the case, why would 
not Saddam--and I hold my breath hoping he will not allow 
inspectors back in there. But why wouldn't he? Does he feel so 
secure that he does not feel any necessity to make any movement 
even to engage us in this charade and cat-and-mouse game, which 
you could have, it seems like, just like that and buy himself a 
year or more if he wanted to, and undergo a little aggravation, 
but almost guarantee, it would seem, and--well, hopefully not 
guarantee, but lead him to think that with all of the support 
he would get in the region, with the European support and all 
of that, he could be assured that there would be no strike 
against him.
    Is he so secure that he doesn't feel any necessity to 
engage us in what I believe would certainly inure to his 
benefit in the short term? Dr. Kay, can you comment on that?
    Mr. Kay. Senator Thompson, first of all, let me say I think 
the first reason he will not do this is he has some 
unsatisfactory experience with inspectors from his point of 
view. I remember--and I had the dubious pleasure of leading 
three of the more confrontational inspections with Iraq--that 
at the end I had an Iraqi Foreign Minister tell me that if we 
had understood that you were not going to behave like the IAEA 
did before the war and a UN diplomat, we would never have 
agreed to this.
    With all the troubles inspectors had, people like Dr. 
Spertzel and the other teams unmasked a program that was 
unknown to national intelligence officials in the scope, depth, 
and degree that the inspectors unmasked. So he has a positive 
hate relationship with regard to the idea.
    Second, inspectors were always a political threat to the 
regime. We represented a failure, a visible failure running 
around Baghdad in our white buses and our white Land Rovers 
that he--although he can torture and cow the rest of Iraq into 
submission, here are individuals who were behaving like they 
were immune to Saddam's threat. For a totalitarian 
dictatorship, that is a virus that you do not want to get 
started. It starts people inside your own regime thinking about 
changes.
    And, finally, I must say, I fear that he has lost his fear 
of the United States. The period in which one believed that six 
or seven Cruise missiles fired into an empty building at 3 a.m. 
in the morning was an appropriate response for an assassination 
attempt on a former President of the United States is not one 
that engenders great fear in a sadistic, fanatical dictator 
like Saddam.
    So those are my reasons. But I must say I have the same 
worry every morning as you.
    Senator Thompson. Dr. Spertzel, let me ask you to comment 
on that and, in addition, whether or not you think if Saddam 
was convinced that we were about to strike him in a significant 
way or invade him, then do you think his calculations would 
change? In other words, if he comes to the point of agreeing 
for an inspection regime of some kind, does that mean he is 
convinced that we are about to do that?
    Mr. Spertzel. Yes, you would have found that would have 
been part of my response, is that I don't think he is yet 
convinced that the United States will act unilaterally in 
opposition to the Europeans as well as the other Middle Eastern 
countries. And certainly those countries and the Europeans are 
giving ample reason to believe that he may be right.
    Now, further indications of that coming into his 
discussions with Kofi Annan is that the head of the Iraqi Ba'th 
Party in the last 4 days made a statement in a speech in 
Baghdad in which he commented something to the effect that the 
United States was the real terrorist Nation because it 
prevented Iraq from reclaiming its rightful territory integrity 
in 1990, i.e., the march on to Kuwait.
    Another senior official, an Iraq Foreign Minister, also 
stated that, yes, they are flexible, but inspections would have 
to include lifting of sanctions and inspections for weapons of 
mass destruction of all countries in the Middle Eastern 
region--clearly an indication that nothing has changed in Iraq 
over the last several months.
    Senator Thompson. Mr. Einhorn, would you care to comment on 
this?
    Mr. Einhorn. I don't think we can really predict what 
Saddam Hussein would do under extreme duress. I would tend to 
doubt that he is going to agree to admit the inspectors. He 
knows, because he knows his own behavior, that sooner or later 
if the inspectors are back, there will be a confrontation. 
Things may go smoothly for a few weeks or months, but sooner or 
later, I think the inspectors will be prying, will be demanding 
and so forth, and Iraq will not be cooperative, and there will 
be another confrontation. And Saddam recognizes that will be 
used by the administration as a very good reason to use 
military force to try to resolve the problem. So he can look 
down the road and see that this is not going to lead anywhere 
very----
    Senator Thompson. Even if we can't get unanimity in the UN 
Security Council.
    Mr. Einhorn. I think he knows--he may be confident, as Dr. 
Spertzel says, that the Bush Administration will be dissuaded 
by some of the concerns of Europeans and so forth. He may feel 
that now. But I think as time goes on, he will recognize that 
this administration is committed to move forward, and that will 
put him eventually in a pretty tight spot. And I wouldn't rule 
out his making certain conditional offers to admit inspectors. 
I don't think he is there yet, but I think he will make those 
offers.
    Senator Thompson. That is very interesting.
    Could I ask the indulgence of my colleagues for one more 
quick question? This is the idea, Dr. Kay, that you alluded to 
or the point you made concerning the public relations battle 
that I believe we are losing, if not lost, in terms of the 
starving children. I have had people from Tennessee come up and 
say that they have talked to Iranian officials. Some of them 
have been down there and, you know, pointed out the effects of 
what we are doing are having on the poor people down there. Is 
there any objective thing that we can point to? Is the oil-for-
food account set aside with money in it under the auspices of 
the United Nations that you can point to and say here is $1 
billion he is not using? Obviously we know he is smuggling oil 
in and getting a lot of money from that. I mean, maybe that is 
a little bit more difficult for people to buy. But what do we 
do about that? That is the mantra that you hear all the time 
now in terms of our terrorist activities.
    Mr. Kay. Senator, it is a very sore point. There are 
factual things you can point to. The program was never--the 
limitation of imports never applied to food and medicine. In 
fact, sometimes I resort to pointing out what is actually 
imported--a liposuction machine. One would not think that a 
liposuction machine in Iraq would be a high-priority import, 
although if you look at some senior Iraqi officials, you can 
understand their desire for it. [Laughter.]
    Mr. Kay. But, look, I confess, Senator Thompson, this is a 
battle I think we didn't fight. We certainly at least didn't 
fight it well. It is a battle that is lost. I think we now need 
to focus on the main issue, that is, getting rid of the regime. 
The thing that will improve the health and well-being of Iraqis 
today more than anything else is the removal of Saddam Hussein 
and his family from power.
    Senator Thompson. Mr. Einhorn.
    Mr. Einhorn. Yes, Senator Thompson, there are some 
objective things you can point to. You are correct, the Oil-
for-Food Program allows Iraq to export oil, but the proceeds 
must go into a UN escrow account, and those funds are to be 
used for the civilian, humanitarian needs of the Iraqi people.
    The balances have remained very high. At the beginning, the 
Iraqis drew down those funds for civilian products. Now they 
have let those funds sit in the escrow account rather than use 
those funds for the needs of the Iraqi people. I don't have 
exactly the numbers in front of me, but we were impressed--when 
I was in government, I was quite impressed with the very 
cynical nature of the Iraqi approach to this problem where they 
continued to complain publicly about the effects of the 
sanctions on the Iraqi public, but they failed to use the funds 
that they could draw upon to meet those needs.
    But I agree with the other witnesses. We have lost this 
propaganda battle. It is very hard to change minds by showing 
them this data.
    Senator Thompson. Dr. Spertzel.
    Mr. Spertzel. Yes, I agree with what has been said. I have 
just two comments to make, because there are points of severe 
irritation with me, and that is the business of medicines and 
food to Iraq. At a time when Iraq was making a great deal of 
progress in winning this public relations battle, the issue was 
settling around medicines, vaccines for children. Well, the bio 
people, we monitored the central distribution point for 
biologicals to the medical community, and we were watching 
donated medicines and vaccines for children sitting on the 
shelves going out of date, intentionally not being distributed. 
As inspectors, we couldn't do anything about it. But it became 
a major sore point with us.
    The other one has to do with food. Our inspectors would buy 
food from the local market, and 1 day they went out to buy and 
there was nothing on the shelves. Everything was gone. And they 
asked why, and the person, the shop owner said, ``Tell me what 
you want. I'll get it for you. We were instructed to clear 
everything off our shelves because there were some foreign 
newsmen coming today.''
    Senator Thompson. Thank you, Mr. Chairman.
    Senator Akaka. Thank you for your questions and the 
responses we received. Senator Cochran.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Mr. Chairman, we obviously are confronted 
with a very troubling situation in Iraq. I have made some notes 
for an opening statement which I will ask be printed in the 
record at this point, with your permission.
    Senator Akaka. Without objection, it will be printed in the 
record.
    [The prepared statement of Senator Cochran follows:]

                  OPENING STATEMENT OF SENATOR COCHRAN

    Mr. Chairman, we obviously are confronted with a very troubling 
situation in Iraq. At the end of the Gulf War, UN Resolution 687 
required Iraq to ``unconditionally accept the destruction, removal, or 
rendering harmless'' of its weapons of mass destruction. But, here we 
are, 11 years later and we have no convincing evidence that these 
weapons have been destroyed, removed, or rendered harmless.
    Saddam Hussein has kept UN inspectors out of Iraq since December of 
1998. Now, following pressure from the Bush Administration, Iraq's 
Foreign Minister and the United Nations Secretary General are going to 
meet next week to discuss the resumption of UN inspections in Iraq.
    I'm concerned that even if Saddam Hussein allows UN inspection, he 
will not cooperate with them. I'm also convinced sanctions have not 
achieved their goals. We may be running out of time and options; so we 
appreciate the opportunity to have the benefit of the thoughts and 
suggestions of these distinguished witnesses.

    Senator Cochran. If I could ask the witnesses about the UN 
inspection situation, the key to success, as I understand, for 
these UN inspections has always been the support of the 
international community. We can't just do this by ourselves and 
make it work. We especially need the cooperation of the 
countries that make up the United Nations Security Council. But 
there seems to have been considerable hesitancy among some of 
these members in creating this new inspection regime, the 
UNMOVIC regime. Several countries, including France and Russia, 
didn't vote, didn't actively support this initiative. Can we 
expect these UN inspections to have any chance of success 
without the cooperation of our allies and friends?
    Mr. Spertzel. At the risk of being undiplomatic, I will 
take that one on. Without the full support of the P-5 members--
France, Russia, China, United States, and U.K.--the inspection 
system doesn't have a chance, no matter what their authority 
might be in Iraq. And I have seen nothing that would suggest 
any change in the attitude and the expressions being stated 
publicly in the media right now by a couple of those countries 
that would indicate there is going to be any change in their 
support.
    Yes, France and Russia abstained in that vote because it 
did not meet Iraq's satisfaction. Iraq was actively encouraging 
them, requesting and pleading with them, to veto it, and they 
compromised by abstaining. I don't see anything that has 
changed.
    Senator Cochran. Mr. Einhorn.
    Mr. Einhorn. Let me go one better than that. Dr. Spertzel 
says that without their support the P-5 unified, the 
inspections can't succeed. If success means disarming Iraq and 
forcing compliance, even with the support, the unified support 
of the Security Council, they won't succeed, because it is very 
difficult to compel compliance, and especially with this 
regime.
    So if one sets that high standard--and we must--then as all 
the witnesses have said, the only way of compelling compliance 
is to change the regime and get a regime that is prepared to 
comply. I think that is the answer.
    But I would say with strong support by the Security 
Council, inspectors can do some useful things, perhaps only for 
a short period of time, before confrontation sets in again.
    I asked a number of my friends in the intelligence 
community what they know about Iraq now and what they feel 
about the inspectors not being there. And they are losing 
touch. They used to have a feel for what was going on in Iraq. 
They are losing that feel now.
    I asked them, would you like to see the inspectors back on 
the ground?, recognizing that the Iraqis are not going to give 
them access to anything incriminating. They said, ``We would 
still like them there. We could get some useful information. It 
would update us on a number of useful things, certain 
suspicious facilities we could at least get access to--that is, 
the UN inspectors could get access to those facilities, and 
resolve certain doubts.'' But they would have no illusions that 
the inspectors would ever be able to find what the Iraqis have 
worked hard to conceal. So there are limited things the 
inspectors can do, but if success is disarming Iraq, forcing 
compliance, they can't do that.
    Senator Cochran. Dr. Kay.
    Mr. Kay. Senator Cochran, could I give you a very practical 
answer? Because I failed Diplomacy 101.
    Talking about support from the Security Council in broad 
terms does not get you very far when you are talking about 
inspectors. The Iraqis will manage the individual 
confrontations at points where much of the world that is not 
focused on disarming Iraq--they are focused on getting rid of 
sanctions and getting on with business--will not understand.
    I led an inspection--because we had good intelligence that 
the Iraqis were hiding documents related to their nuclear 
centrifuge program--to a hospital for amputees. Now, can you 
imagine how many Security Council members I would have behind 
me if the Iraqis had chosen--fortunately this was on the first 
inspection, and they hadn't gotten very smart. But if they had 
chosen to say we can't have you traipsing through a hospital 
that has amputees from the war with Iran there, I probably 
wouldn't have gotten the support of my own government, quite 
frankly, at that stage. And that is how they manage the 
confrontations. It is not on the high ground. It is on 
individual cases, access to Saddam's palace, access to a Ba'th 
Party political headquarters. Well, you know, would we like UN 
inspectors traipsing through the RNC or DNC?
    I mean, they do it in ways that guarantee you will not 
keep--now, we managed to in the early days. In this current 
condition, I think it is absolutely assured that we would not 
keep the Council through really tough inspections.
    Senator Cochran. On another subject, I think Mr. Einhorn 
and Dr. Spertzel have testified that Iraq deployed Scud 
missiles with biological warheads. There are several reports 
that we have received, unclassified reports, that Saddam 
Hussein continues to retain interest in missiles of longer 
range than those permitted under UN Resolution 687. Do you 
think he is likely to try to equip long-range ballistic 
missiles that he may develop with weapons of mass destruction?
    Mr. Spertzel. I will start out by--yes. We found plans, 
design plans for a container to fit into a missile warhead--and 
I am not enough of a missile expert to tell you which one--the 
size of which could have only been for bio application. It was 
much too small for either chemical or nuclear devices. And 
certainly all the indications we had during the inspection 
period was their interest in acquiring a longer-range 
capability. The intent of at least one of the two Superguns, 
which was designed to hit much of Europe, or so the propaganda 
said, that the smaller of those two was clearly designed to 
carry a biological warhead, or missile, I guess in this case, 
being fired from the Supergun.
    So, yes, there was and undoubtedly is a continuing interest 
in developing longer-range missiles capable of delivering a 
small payload, which is easier for them to do. That would imply 
bio and perhaps later on a nuclear.
    Senator Cochran. Dr. Kay, could you respond?
    Mr. Kay. If he had the capacity to do it, I have no doubt 
that, in fact, he would do it. This is an individual who has 
sought it at every stage.
    For example, in the nuclear program, although they were 
starting with an early program, they were already carrying out 
research on how to use thermonuclear boosting to increase the 
size and yield of the weapon.
    The aspirations are unlimited. Given the time and the money 
and Saddam still in power, they will certainly proceed along 
that course.
    Senator Cochran. Mr. Einhorn.
    Mr. Einhorn. Just to add something, Senator Cochran, there 
is no question they would like longer-range missiles. One of 
the failings of Resolution 687, the ceasefire resolution, was 
that it allowed the Iraqis to have missiles up to 150 
kilometers in range. I think that was very unfortunate because 
under the guise of permitted short-range systems, they could do 
a lot of work to help them get a leg up on future, more capable 
systems, and they are doing that right now.
    This Al-Samoud liquid-fueled missile is supposed to be 
below 150 kilometers. I have my doubts about that. They have a 
tactical short-range solid-fueled missile called the Ababil 
that I think is being used to develop a solid propellant 
infrastructure that can then be used in the future for more 
capable solid-fueled missiles. So I think they are laying the 
groundwork.
    But it is important to recognize the embargo, the current 
sanctions, as porous as they are, do have an impact on 
restricting what they can do. No doubt they are trying on the 
black market to acquire ingredients for their missile program. 
And they are succeeding to some extent.
    But, an important aspect of a missile program is to be able 
to flight test, and, sure, they are conducting short-range 
flight tests that they are permitted to do, but they can't fire 
a missile at long range. They know they would be detected.
    Look at Iran. Iran is flight-testing this medium-range 
ballistic missile, the Shahab-3, and they are making a lot of 
headway on acquiring a delivery capability that can go 
throughout the Middle East.
    Iraq is real constrained because of the inability to have 
an overt flight-test program at long range. That is an 
important constraint on what they can do.
    Senator Cochran. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Akaka. Thank you, Senator Cochran.
    Dr. Spertzel and Dr. Kay, on Sunday, Secretary Rumsfeld 
said that international inspectors were limited in what they 
could do, and that their ability to find out what was actually 
taking place was minimal. He noted, `` the real information 
that they were able to get--came from defectors who left the 
country, provided inspectors with information and in a few 
cases were able to discover some things and destroy some 
capabilities.''
    The question is: Were all substantial discoveries made as a 
result of defectors?
    Mr. Kay. Senator, in my case, that is not the case. I 
hesitate to disagree with Secretary Rumsfeld, A, because I 
don't want to become the subject of his afternoon press 
briefing, but more importantly, I was actually flying back from 
Honolulu on Sunday and so didn't hear what he said on ``Meet 
the Press'' or ``Face the Nation.''
    Inspectors--and Bob Einhorn referred to it. There is no 
substitute for people on the ground. We certainly used 
information from defectors. We used information, at least while 
I was there, from any source we could. But we made genuine 
discoveries. The Iraqis made stupid mistakes, and we unraveled 
them. They lied and we detected those lies and pulled them 
apart. It is not true that all the information was discovered 
as a result, at least in the nuclear area, as a result of 
defectors--although I welcome defectors, let me be clear.
    Mr. Spertzel. And with all due respect to Secretary 
Rumsfeld--and thank you for asking that question because I 
welcome the opportunity to reply to his statement. In bio, that 
absolutely is not the case. If I had to cite one single item 
that may be the most important, it would have been the import 
of supplies and equipment, the records that we were able to 
obtain from suppliers. That became the crucial item that forced 
Iraq to acknowledge their program, and the information that we 
had up until July 1, 1995 when Iraq first acknowledged their 
biological warfare program, none of it came from defectors.
    Now, as Dr. Kay said, certainly I would welcome defector 
information. Now, Hussein Kamel Hassan's defection did not add 
anything to the bio program other than perhaps stimulate Iraq 
to make further elaboration, but it wasn't information that we 
obtained from him.
    Now, there were later defectors and one very crucial one 
that would have led us to a site in January 1998 that the 
information received from that defector, as well as 
corroborating evidence from other sources, would have indicated 
an active bio research and development facility, except the 
whole system came to a screeching halt in challenge inspections 
in January 1998 and unfortunately got billed as a palace issue, 
which it had nothing to do with palaces. We had arranged to 
have three bio teams in-country at the same time, and we were 
going to join the inspection team of Scott Ritter to go to that 
site. But they got blocked the day before.
    So, yes, defector information is valuable, but I think it 
played a minor role, not a major role.
    Senator Akaka. Thank you.
    Mr. Einhorn, an Iraqi defector said he personally worked on 
renovations of secret facilities for biological, chemical, and 
nuclear weapons in underground wells, private villas, and under 
a hospital in Baghdad as recently as a year ago. Do you believe 
that these sites are used primarily to hide activities or to 
discourage military action against the sites in the future? And 
what recourse does the United States have against such 
facilities?
    Mr. Einhorn. Mr. Chairman, I am not aware of the specific 
reports. They are certainly plausible to me, given past Iraqi 
behavior. They may feel that by hiding proscribed materials in 
places like that, it would be difficult to inspect without 
arousing public opinion, that they could have some degree of 
immunity from the effects of inspection. So it is entirely 
plausible to me that they would adopt that strategy. These 
gentlemen (the other witnesses) are probably familiar with many 
cases where they have adopted that strategy in the past.
    Senator Akaka. Dr. Kay and Dr. Spertzel, UN resolutions 
governing UNSCOM activities permitted on-site inspections with 
full access, including no-notice inspections and sample 
analysis. How frequently did you as an inspector implement 
these measures?
    Mr. Spertzel. In the case of bio, our resident inspection 
teams, to my knowledge, always functioned on a no-notice basis. 
That was the instructions to them.
    They also worked on a variable schedule that was devised--
and I would prefer not to say publicly what the basis was--so 
that it was sufficiently random that hopefully Iraq would not 
know.
    The limitation we had, however, was the minute a bio team 
headed beyond Samarra, they obviously were only going to three 
sites in the north, similarly in the south. And one of the 
proposals that has been made for a new inspection regime is 
that they have satellite inspection teams full-time in the 
north and the south and elsewhere in Iraq in addition to 
Baghdad, if necessary, because that essentially provided 
notification to Iraq.
    The non-resident teams always functioned on a no-notice 
basis, whether it was revisiting a declared site or an 
undeclared site.
    Mr. Kay. Mr. Chairman, I conducted actually the first no-
notice inspection by any of the teams in Iraq. It was a result 
of having for a week tried to give the Iraqis under 
instructions notice of 24 to 12 hours. Not surprisingly, they 
moved everything. And so we resorted--and after that point, no 
notice became the standard.
    Now, it seems it is--no notice sounds easier in theory than 
it is. There are logistic opportunities, like Dr. Spertzel 
referred to. There is also the fact that all your meeting rooms 
were audio-bugged. I spent a number of hours jogging around 
Baghdad with some fit and some not-as-well-fit inspectors as we 
planned out how to conduct inspections because that was our 
only privacy.
    The Iraqis, we now know because of a defector, had 
penetrated a number of the inspection teams and actually gained 
notice. It was a constant struggle. Without no-notice 
inspections, there are absolutely no hopes of finding anything.
    Senator Akaka. Dr. Kay, why has the International Atomic 
Energy Agency been able to continue its inspections in Iraq? Is 
it due to their inspections being more narrowly defined? Or are 
they seen as less political and more independent than the UN 
teams?
    Mr. Kay. The Iraqis from the beginning have tried to drive 
a wedge between UNSCOM as the tough guys and the IAEA as the 
soft technical inspection. It was always a problem, one that 
was managed. The current inspections that have continued since 
1998, though, are because they are more narrowly focused. They 
are focused on sites which were pre-Gulf War nuclear--permitted 
nuclear activity areas. They go only there. They don't go 
anyplace else. It is a narrow technical, and so it gives the 
Iraqis the appearance of maintaining compliance with the non-
proliferation treaty, and yet it does not threaten their hidden 
program.
    So under those ground rules, you could conduct biological 
inspections or anything else. It is just not threatening to 
their program.
    Mr. Spertzel. If I could add, I believe those inspections 
are also aimed at essentially recertifying that a known 
quantity of nuclear material that Iraq had in 1990 is still 
there and that the IAEA teams can come in and still cite, oh, 
yes, there is X number of pounds of substance X, and it is 
aimed at that, not whether they have accumulated anything else.
    Mr. Kay. That is absolutely the case.
    Senator Akaka. Thank you. Senator Thompson.
    Senator Thompson. Thank you, Mr. Chairman.
    Senator Akaka. More questions?
    Senator Thompson. Yes, sir.
    Dr. Spertzel, you made reference to the fact that from the 
very beginning their WMD program--perhaps you were referring 
specifically to the biological program--had a terrorist 
component. What did you mean by that? Could you elaborate?
    Mr. Spertzel. Yes. I was referring to the bio, although at 
least initially it was true for the chemical as well. When the 
bio program was established by Iraq in 1973, perhaps late 1972, 
under the Al-Hazen Ibn Al Haithem Institute, the program was 
established totally by the intelligence organization with some 
technical input as well by the military, but all funding and 
guidance came through the intelligence.
    The nature of the studies that they were conducting, the 
types of organisms that they were evaluating and so on 
indicated two types of delivery: Those that would be of 
interest to the military for tactical and strategic reasons, 
and those that would be only of value used in a clandestine 
terrorist fashion.
    And, in fact, the initial efforts with the wheat smut, 
wheat cover bunt, anti-crop agent was developed to be delivered 
covertly and was the initial efforts in an unmanned, albeit in 
this case a very small drone as a delivery means. The initial 
efforts appear to have been aimed at Iran, but later the 
interest changed.
    There was also a variety of interesting other agents that 
are of only utility for terrorist application.
    Senator Thompson. Their biological program is still under 
the intelligence organization, isn't it?
    Mr. Spertzel. Yes, sir. There was a period perhaps from 
about 1979 to 1983--I am sorry, 1986 or 1987 when the military 
piece was under DOD--Ministry of Defense, and then brought--in 
1987 it was brought back under the umbrella of the intelligence 
service. By that time the intelligence service had split into 
two different organizations. In this time, it was under the 
special security organization that is currently headed, I 
believe, by Saddam's oldest son.
    Senator Thompson. So you attach significance to that, the 
organizational structure, and looking at it from a terrorist or 
potential terrorist standpoint. That would be the main reason 
you think that it would be organized that way, because it would 
not strictly be military or defense usage.
    Mr. Spertzel. That is right. The program, as it appears to 
be designed, is for either the last-gasp, if you like, 
protection of the regime as well as the second side, which 
appears to be from the very beginning aimed at terrorist 
application, terrorist usage, wherever the regime felt 
necessary.
    Senator Thompson. Could you elaborate on that a little bit? 
I guess to me that issue would depend upon, of course, its 
usage. Developing the biological weapons themselves, I suppose, 
could be done under any structure. But is there anything that 
you see in terms of their usage or their preparation that would 
indicate an offensive intent? You mentioned maybe a last-gasp 
situation where it is a fallback to be used in case they are 
about to be overrun or something, which would be serious enough 
in and of itself. But is there anything in addition to that 
that would indicate to you some potential offensive usage?
    Mr. Spertzel. From the military standpoint or terrorist 
standpoint? The military----
    Senator Thompson. From a terrorist standpoint.
    Mr. Spertzel. From the terrorist standpoint, because the 
Commission made almost an active effort not to delve into the 
terrorist side of it, we have very little information to go on.
    Senator Thompson. Why was that?
    Mr. Spertzel. It was deemed that it was not part of the 
mandate of Resolution 687.
    Senator Thompson. So we don't know as much about potential 
terrorist capability or intention as we perhaps could have.
    Mr. Spertzel. Absolutely.
    Senator Thompson. That leads me to something else. You 
mentioned--I think, Dr. Kay, it was you who indicated that in 
terms of what they were doing from a nuclear standpoint, that 
our intelligence estimates were off. Would you elaborate on 
that a bit, and Dr. Spertzel also, in terms of bio? How does 
what we found when we were in over there or anything that we 
may have determined later compare with our intelligence 
estimates that we had going in? We know from the Rumsfeld 
Commission, for example, that we were off quite a bit in terms 
of some countries, in terms of some capabilities. Dr. Kay, I 
assume that was the case that you alluded to. Could you 
elaborate on that a bit?
    Mr. Kay. Well, in the nuclear program, the prevailing 
intelligence estimate was that the Israeli action against 
Osiraq reactor, which occurred in June 1981, had substantially 
derailed the Iraqi nuclear program, that the principal evidence 
seen in the period from 1981 to the Gulf War was a shop-until-
you-drop mentality, that is, Iraq had a lot of money and they 
were buying a lot of things and that there wasn't substantial 
doubt that they were trying to pursue a nuclear program, but 
that it seemed to be chaotic and not very close and not 
focused.
    And there were less than a dozen facilities identified as 
target points during the course of the coalition air campaign 
as being decisively known to be nuclear facilities or thought 
to be nuclear facilities.
    When we got on the ground, we found that instead of that, 
what the Iraqis had done is they had pursued a systematic Iraqi 
Manhattan Project designed to procure high-enriched uranium 
using literally all the known methods, the Tarmiya, the 
central--the first place we found the centrifuge--or, pardon 
me, the calutron program, EMIS program, electromagnetic isotope 
separation program, was, Senator Thompson, you will be happy to 
know, an exact duplicate of a facility that exists in your 
State. What the Iraqis had done is come here, and quite openly 
because it was unclassified, buy the blueprints of where we 
produced high-enriched uranium at Oak Ridge using calutrons, 
and just built a plant. They had also had a centrifuge program 
that had produced a building, what is called Al Furat, that was 
not known to U.S. intelligence until inspectors discovered it. 
And let me make this point: This was not as a result of a 
defector. We discovered that in the course of an inspection 
because an Iraqi official made a mistake in how he described 
the program, and we went there. It was larger than any 
centrifuge plant that exists in Western Europe or the United 
States, that if the war had not intervened, right now we would 
be facing an Iraq, if they had overcome the production 
problems, that would be producing a very large amount of high-
enriched uranium.
    They also produced a chemical enrichment program. They were 
trying laser enrichment, which probably would have only 
consumed a large amount of money and not produced nuclear 
material. That has been our experience with it. But it was an 
all-encompassing program. The scope, scale, and dimension was 
much larger than was known by anyone.
    Let me not throw stones at the U.S. intelligence community. 
I did not receive a briefing from any other country's 
intelligence community that indicated they knew that scope.
    Senator Thompson. This plan with regard to the Oak Ridge 
facility, was this a blueprint you discovered, or what was it, 
did you say?
    Mr. Kay. We actually discovered the plant, and----
    Senator Thompson. They had duplicated the plant?
    Mr. Kay. They had duplicated the plan. They built it to the 
plan, and the way we discovered it is a testimony to actually 
the knowledge in the U.S. program, although the individual has 
since passed away. We brought the photos back, spread them out 
on the table, asked one of the Oak Ridge designers, who was 
still alive and still working there, 80 years old, in that 
plant, didn't tell him what it was except a facility in Iraq. 
He walked around, looked at the pictures, and said--and I will 
never forget the statement--``I know this plant. I work in this 
building every day of my life.'' And sure enough, as we took 
the plant apart and then we discovered the blueprints later, it 
had been built to a set of U.S. plans.
    Senator Thompson. How do you account for that?
    Mr. Kay. Well, the plans are openly available. You could go 
today and buy them. We declassified--the calutron program, the 
EMIS program, was one that the United States abandoned because 
gaseous diffusion came on line and was far more efficient. When 
we were doing calutrons during the course of the Second World 
War, it took approximately one-half of the available U.S. 
electric supply and all the silver that was stored by the 
Treasury to use to wrap magnets in. It was a very inefficient 
way. The Iraqis had improved on it. They pursued it because 
they correctly guessed that no one would think anyone would be 
so stupid as to use that means of enrichment.
    And, in fact, the first assessment that came back to the 
United States, two Nobel Prize winners were asked to evaluate 
it, and their exact comment was, ``It can't be that. No one 
would be so stupid to do that. There are better ways to 
produce.''
    There is a lesson for us here. There were some very old 
ways and still are very old ways of producing weapons that are 
quite destructive.
    Senator Thompson. It was older but it was easier for them 
to do?
    Mr. Kay. It was easier to hide and disguise. They still 
struggled with that process as well. That is why they were 
developing centrifuges, which are genuinely easier for everyone 
once you produce centrifuges.
    Senator Thompson. So they have plenty of uranium, I take 
it. It is just a matter of enriching it and----
    Mr. Kay. That is correct. There is abundant uranium in 
Iraq. It is not in the concentrations you would like to have or 
you would find in Canada or other places, in the former Soviet 
Union. But there is plenty of uranium. Money doesn't constrain 
their program. And this was the hard lesson everyone has 
learned. Just because it is expensive to do or not the best way 
doesn't mean the Iraqis won't pursue it. They will spend the 
money.
    Mr. Spertzel. In the bio program, clearly the intelligence 
was sufficient to know that Iraq was at least attempting to 
weaponize botulinum toxin and anthrax, which is what prompted 
the use of vaccines against those agents for the coalition 
forces. But the intelligence was not good enough to know where 
the production plants were because of the four sites that we 
could identify as actually being involved in the production of 
biological agents, not a single one of them was touched by even 
one bomb.
    So, yes, the intelligence----
    Senator Thompson. Could that have been on purpose?
    Mr. Spertzel. No. They simply didn't know.
    Senator Thompson. There was no danger to the civilian 
population or anything like that that would have come into 
play?
    Mr. Spertzel. Certainly the major production plant, which 
was the Al Hakam facility out in the desert, that could have 
been blown up with absolutely no qualms whatsoever, 
particularly if it was a daylight strike.
    Senator Thompson. So is it fair to say we knew basically 
what they were doing, we just didn't know where they were doing 
it?
    Mr. Spertzel. We certainly had some indication that they 
were investigating both botulinum toxin as well as anthrax. My 
guess is a lot of that probably came from import information 
because there was a basis for--would have been a basis for 
questioning that. But it was believed that most of that effort 
was all taking place at the Salman Pak Peninsula. And it is 
true, Salman Pak was, in fact, the original site of the BW 
program back in the early 1970's and stayed there throughout 
the 1970's and 1980's. But it was a research site, research and 
development site, not a production site. And by July 1990, 
before the invasion of Kuwait, all of the bacterial piece of 
the bio program had been moved out of Salman Pak and only the 
terrorist application as well as the Ricin work remained at 
Salman Pak.
    So, actually, our information was not current in terms of 
what Salman Pak was being used for by the Iraqis.
    Senator Thompson. Thank you, Mr. Chairman.
    Senator Akaka. Thank you. Do you have anything further?
    Senator Thompson. I don't, unless Mr. Einhorn wants to 
comment on the last--I am finished. Thank you.
    Senator Akaka. Thank you, Senator Thompson.
    I would ask that the statement of Senator Carnahan be 
included into this hearing record.
    [The prepared statement of Senator Carnahan follows:]

                 PREPARED STATEMENT OF SENATOR CARNAHAN

    Thank you, Mr. Chairman.
    I, too, want to welcome the distinguished panel we have before us 
today.
    You are top experts in your respective fields, and I am looking 
forward to hearing your views on the dangerous situation in Iraq.
    For too long now Saddam Hussein's Iraq has posed a threat to both 
its neighbors and the international community.
    He lost the war but his program to develop weapons of mass 
destruction has not been dismantled.
    He had the choice to comply with the United Nations resolutions and 
rejoin the community of nations.
    But he has made other choices, and those choices need to have 
consequences.
    While Iraq has been contained militarily in recent years, we have 
not had weapons inspectors on the ground since 1998. So for years, Iraq 
has been free to develop nuclear, chemical, and biological weapons with 
impunity.
    Saddam Hussein has raised an estimated $1 to $2 billion annually 
from smuggled, illegal oil sales revenues.
    This money has most likely been spent on his weapons of mass 
destruction programs.
    Yet he has blamed the United Nations and the United States for the 
suffering of the Iraqi people, when in reality he has chosen not to use 
available funds for humanitarian purposes.
    Today's hearing has two important purposes.
    First, it is critical that we begin the process of educating the 
American people about the threat that Saddam poses:

        --Labout the dangerous weapons that he is developing; and
        --Labout the possibility that he could provide them to 
        terrorists that would use them against the United States.

    Second, we need to explore the risks and rewards of the various 
policy options available to the United States.
    We can continue to contain him through the no-fly zone and ``smart 
sanctions.'' But that would not have an appreciable impact on his 
weapons of mass destruction.
    We can try to topple him by supporting opposition group, but we 
need a realistic analysis of the likelihood that such an effort could 
succeed.
    Or we could take military action.
    But we need to understand the readiness of our armed forces for 
such an engagement, the difficulties of eliminating Saddam's regime, 
and the impact such action would have on the volatile Middle East 
region.
    Finally, we need to envision what a post-Saddam world would look 
like and anticipate how to manage difficulties that would arise if 
there were instability in the Gulf region.
    So this is a difficult subject worthy of discussion and study. I 
look forward to your testimony.

    Senator Akaka. I would like to thank my fellow Senators for 
their time and interest in this important issue.
    Mr. Einhorn, Dr. Kay, and Dr. Spertzel, I thank you for 
your thoughtful remarks. Your testimony has been very thorough. 
To summerize your comments: We have lost the propaganda and 
public relations battle with Iraq; and a solution to the threat 
posed by Iraq upon the United States and the world is to 
replace Saddam Hussein and his regime.
    You have done the American people a great service by 
providing such useful and candid statements and sharing your 
experience and knowledge with us. You have painted a dark 
picture. Our Nation and our allies have some difficult 
decisions to make about Iraq. The deterrence effect of weapons 
of mass destruction has been both a benefit and hazard to the 
United States and our allies.
    On the one hand, reports indicate that during the Gulf War, 
Iraq resisted using chemical weapon warheads against coalition 
troops and Israel out of fear of United States retaliation.
    On the other hand, Iraqi leaders are convinced that their 
possession of WMD was vital to their survival by keeping 
American and coalition forces from getting into Baghdad in 
1991.
    I think we have to ask ourselves, with that mind-set, how 
realistic is it to expect the current regime in Iraq to ever 
give up WMD capabilities.
    As Mr. Einhorn has said, the current regime in Iraq is 
truly a class by itself. The United Nations credibility is 
being undermined by Iraq's well-documented and clear-cut 
violations of proliferation agreements. If we fail to stop 
Iraq's WMD programs, how will we be able to stop other nations 
with similar intentions such as Iran?
    The international community must work together. The 
implementation of any system to destroy Iraq's WMD capabilities 
will depend on firm and active support by the international 
community. We have heard a lot of very strong rhetoric about 
Iraq. Now we must put action behind the rhetoric. We must state 
clearly what our objectives are in Iraq. We must decide what 
policies are needed to meet these objectives, and we must state 
when we will use force to meet these objectives. This is the 
only way to maintain our credibility with our allies and 
adversaries.
    Gentlemen, we have no further questions at this time. 
However, Members of this Subcommittee may submit questions in 
writing for any of the witnesses. We would appreciate a timely 
response to any questions.
    The record will remain open for these questions or further 
statements from my colleagues, and, again, I would like to 
express my appreciation to our witnesses for your time and for 
sharing your insights with us. This has been valuable to this 
Subcommittee.
    This hearing is adjourned.
    [Whereupon, at 12:34 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8624.001

[GRAPHIC] [TIFF OMITTED] T8624.002

[GRAPHIC] [TIFF OMITTED] T8624.003

[GRAPHIC] [TIFF OMITTED] T8624.004

[GRAPHIC] [TIFF OMITTED] T8624.005

[GRAPHIC] [TIFF OMITTED] T8624.006

[GRAPHIC] [TIFF OMITTED] T8624.007

[GRAPHIC] [TIFF OMITTED] T8624.008

[GRAPHIC] [TIFF OMITTED] T8624.009

[GRAPHIC] [TIFF OMITTED] T8624.010

[GRAPHIC] [TIFF OMITTED] T8624.011

[GRAPHIC] [TIFF OMITTED] T8624.012

[GRAPHIC] [TIFF OMITTED] T8624.013

[GRAPHIC] [TIFF OMITTED] T8624.014

[GRAPHIC] [TIFF OMITTED] T8624.015

[GRAPHIC] [TIFF OMITTED] T8624.016

[GRAPHIC] [TIFF OMITTED] T8624.017

[GRAPHIC] [TIFF OMITTED] T8624.018

[GRAPHIC] [TIFF OMITTED] T8624.019

[GRAPHIC] [TIFF OMITTED] T8624.020

[GRAPHIC] [TIFF OMITTED] T8624.021

[GRAPHIC] [TIFF OMITTED] T8624.022

[GRAPHIC] [TIFF OMITTED] T8624.023

[GRAPHIC] [TIFF OMITTED] T8624.024

[GRAPHIC] [TIFF OMITTED] T8624.025

[GRAPHIC] [TIFF OMITTED] T8624.026

[GRAPHIC] [TIFF OMITTED] T8624.027

[GRAPHIC] [TIFF OMITTED] T8624.028

[GRAPHIC] [TIFF OMITTED] T8624.029

[GRAPHIC] [TIFF OMITTED] T8624.030

[GRAPHIC] [TIFF OMITTED] T8624.031

[GRAPHIC] [TIFF OMITTED] T8624.032

[GRAPHIC] [TIFF OMITTED] T8624.033

[GRAPHIC] [TIFF OMITTED] T8624.034

[GRAPHIC] [TIFF OMITTED] T8624.035

[GRAPHIC] [TIFF OMITTED] T8624.036

[GRAPHIC] [TIFF OMITTED] T8624.037

[GRAPHIC] [TIFF OMITTED] T8624.038

[GRAPHIC] [TIFF OMITTED] T8624.039

[GRAPHIC] [TIFF OMITTED] T8624.040


</pre></body></html>
